                   U.S. Department of Agriculture

                      Office of Inspector General
                             Great Plains Region




          Audit Report
   Risk Management Agency and
       Farm Service Agency
Zero Acreage Reporting Compliance




                         Report No. 50099-51-KC
                                     March 2007
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                           OFFICE OF INSPECTOR GENERAL

                                                 Washington, D.C. 20250




DATE:               March 28, 2007

REPLY TO
ATTN OF:            50099-51-KC

SUBJECT:            Zero Acreage Reporting Compliance

TO:                 Eldon Gould
                    Administrator
                    Risk Management Agency

                    Teresa C. Lasseter
                    Administrator
                    Farm Service Agency

ATTN:               Michael Hand
                    Deputy Administrator for Compliance
                    Risk Management Agency

                    T. Mike McCann
                    Director, Operations Review and Analysis Staff
                    Farm Service Agency

FROM:               Robert W. Young             /s/
                    Assistant Inspector General
                     for Audit


We have completed our review of producers’ and approved insurance providers’ (AIP)
compliance with Federal Crop Insurance Corporation annual crop acreage reporting
requirements. Our overall objective was to determine the extent to which the Federal crop
insurance program was vulnerable to producers and/or insurance agents who did not report
planted acreage to the Risk Management Agency (RMA) to avoid payment of insurance
premiums or fees. To accomplish our objective, we compared policy acreage data maintained by
RMA with producers’ acreage data maintained by the Farm Service Agency (FSA) for the 2002
and 2003 crop years. FSA also has acreage reporting requirements for farm programs it
administers. We identified about 60,000 cases where RMA policy records showed no planted
acreage, but FSA data showed acres were planted. We reviewed 81 statistically selected
producers and identified 42 with valid crop insurance policies 1 and planted acreage that should
have been reported as insurable acreage for crop insurance purposes. These insured were not

1
    There was no evidence on file showing timely cancellation of the policy or coverage.
Eldon Gould et al.                                                                              2


required to pay any premiums or catastrophic risk protection fees due. We interviewed
producers and their agents to determine their reasons for the discrepancies. The audit was
conducted in accordance with Government Auditing Standards.

Generally, we found that while some producers (24) or their insurance agents (13) did not report
planted acreages to AIPs, the impact on crop insurance premium and fee revenue was
immaterial. AIPs denied liability, as allowed by the crop insurance contract basic provisions and
no indemnity/loss claims were made on the policies. We also noted that RMA and AIPs did not
consider missing and/or incorrect zero acreage reports to be problematic since AIPs could reject
insurance liability for those policies by reporting zero or no planted acreage to RMA.
Accordingly, neither RMA nor its AIPs had established adequate management controls to
determine the propriety of zero acreage reports for crop insurance policies not earning premium
or catastrophic risk protection fees. However, as stated earlier, based on the sampled producers,
the impact on crop insurance premium and fee revenue was not material.

We believe that RMA needs to reconsider whether a control is needed to identify policies that
retroactively report planted acres in the following crop year for acreage and production history
purposes. We identified 11 such policies where acreage was retroactively reported as planted and
AIPs recorded the acreage and production for the producers’ future crop years’ actual production
history records. For these policies, no loss claims were made for the affected crop years;
however, two of the policies did have loss claims in following years that were based, in part, on
the retroactive inclusion of the additional crop acreage and production data. This condition
allows some producers an advantage to retroactively increase their crop histories without
insurance premiums or fees being paid for the prior year.

During the review, we briefed your staff regarding our concerns relative to the absence of a
process to identify insurable crop acreage not reported to RMA as required by crop insurance
policy provisions. Since this report presents no findings or recommendations, no further action is
required by your office.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
review.
Informational copies of this report have been distributed to:

Administrator, RMA                                              (5)
Administrator, FSA
 Attn: Agency Liaison Officer                                   (10)
Government Accountability Office                                (1)
Office of Management and Budget                                 (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division                 (1)
